APPENDIX

App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-10198-D
BRANDON LEE MOJICA,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court
for the Middle District of Florida
Signed 04/03/2019
ORDER:
Appellant's motion for a certificate of appealability is
DENIED because he cannot make a substantial
showing of the denial of a constitutional right. See 28
U.S.C. § 2253(c)(2).
/s/ Stanley Marcus
UNITED STATES CIRCUIT JUDGE

App. 2
United States District Court
Middle District Of Florida
Orlando Division
Brandon Lee Mojica,
Petitioner
v.
United States of America,
Respondent.
Case No: 6:17-cv-2122-Orl-37TBS
Signed 11/16/2018
ORDER
This cause is before the Court on the Amended Motion
to Vacate, Set Aside, or Correct Sentence (“Amended
Motion to Vacate,” Doc. 10) filed by Petitioner
pursuant to 28 U.S.C. § 2255. Petitioner also filed a
Memorandum of Law (Doc. 15) in support of the
Amended Motion to Vacate. The Government filed a
Response in Opposition to the Motion to Vacate
(“Response,” Doc. 17) in compliance with this Court's
instructions and with the Rules Governing Section
2255 Proceedings for the United States District
Courts. Petitioner filed a Reply (Doc. 20) to the
Response. For the reasons set forth herein, the
Amended Motion to Vacate is denied.
I. PROCEDURAL BACKGROUND
A Grand Jury charged Petitioner by Indictment with
one count of aiding and abetting armed bank robbery
(Count One) and one count of aiding and abetting the
brandishing of a firearm during and in relation to a
crime of violence (Count Two). (Criminal Case No.

App. 3
6:16-cr-239-Orl-37TBS, Doc. 16.)1 Petitioner entered
into a Plea Agreement (Criminal Case Doc. 49) in
which he agreed to enter a guilty plea to Counts One
and Two of the Indictment. The Court held a hearing
on the plea and ultimately accepted it. (Criminal Case
Doc. 79.) The Court then entered a Judgment in a
Criminal Case (Criminal Case Doc. 63) in which
Petitioner was sentenced to imprisonment for a total
term of 120 months. Petitioner did not file a direct
appeal.
II. LEGAL STANDARDS
A. Relief Under Section 2255
Section 2255 permits a federal prisoner to bring a
collateral challenge by moving the sentencing court to
vacate, set aside, or correct the sentence. 28 U.S.C. §
2255(a). “A petitioner is entitled to an evidentiary
hearing if he “alleges facts that, if true, would entitle
him to relief.” Rosin v. United States, 786 F.3d 873,
877 (11th Cir. 2015) (citation and quotation omitted).
However, “a defendant must support his allegations
with at least a proffer of some credible supporting
evidence.” United States v. Marsh, 548 F. Supp. 2d
1295, 1301 (N.D. Fla. 2008). Moreover, the Court “is
not required to grant a petitioner an evidentiary
hearing if the § 2255 motion and the files and records
of the case conclusively show that the prisoner is
entitled to no relief.” Rosin, 786 F.3d at 877 (citation
and quotation omitted).1

1 Criminal Case No. 6:16-cr-239-Orl-37TBS will be referred to
as “Criminal Case.”

App. 4
B. Standard for Ineffective Assistance of Counsel
In Strickland v. Washington, the Supreme Court
established a two-part inquiry for ineffective
assistance of counsel claims:
First, the defendant must show that counsel’s
performance was deficient. This requires showing
that counsel made errors so serious that counsel was
not functioning as the “counsel” guaranteed the
defendant by the Sixth Amendment. Second, the
defendant must show that the deficient performance
prejudiced the defense. This requires showing that
counsel’s errors were so serious as to deprive the
defendant of a fair trial, a trial whose result is
reliable. 466 U.S. 668, 687 (1984).
The petitioner bears the burden of proof in
establishing both requirements of the Strickland test.
See Roberts v. Wainwright, 666 F.2d 517, 519 n.3
(11th Cir. 1982) (“The burden of proof for showing
ineffective assistance of counsel is, and remains, on
petitioner throughout a habeas corpus proceeding.”
(internal citations omitted)). Further, the Court “need
not address both [Strickland] prongs if the [petitioner]
has made an insufficient showing on one.” Osley v.
United States, 751 F.3d 1214, 1222 (11th Cir. 2014).
Given this exacting burden, “the cases in which
habeas petitioners can properly prevail . . . are few
and far between.” Waters v. Thomas, 46 F.3d 1506,
1511 (11th Cir. 1995).
“To establish deficient performance, a defendant must
show that his counsel’s representation fell below an
objective standard of reasonableness in light of
prevailing professional norms at the time the

App. 5
representation took place.” Cummings v. Sec’y for
Dep’t of Corr., 588 F.3d 1331, 1356 (11th Cir. 2009). In
the context of challenging a guilty plea, the petitioner
must establish that his counsel’s performance was
deficient and that a reasonable probability exists that
he would not have pleaded guilty but for his counsel’s
errors. Strickland, 466 U.S. at 687; McCoy v.
Wainwright, 804 F.2d 1196, 1198 (11th Cir. 1986).
Furthermore, “[t]he reasonableness of counsel’s
performance is to be evaluated from counsel’s
perspective at the time of the challenged error and in
light of all the circumstances, and the standard of
review is highly deferential.” Kimmelman v.
Morrison, 477 U.S. 365, 381 (1986); see also Smith v.
Singletary, 170 F.3d 1051, 1053 (11th Cir. 1999)
(“When analyzing ineffective-assistance claims,
reviewing courts must indulge a strong presumption
that counsel’s conduct fell within the wide range of
reasonably professional assistance.”). As with the
instant case, the “presumption of reasonableness is
even stronger when we are reviewing the performance
of an experienced trial counsel.” Callahan v.
Campbell, 427 F.3d 897, 933 (11th Cir. 2006).
To satisfy the prejudice prong, the defendant must
show a “reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at
694. It is not enough to show that the errors had some
conceivable effect on the outcome of the proceeding.
Id. at 693.

App. 6
III. ANALYSIS
A. Claim One
Petitioner states that that his counsel, Fritz J.
Scheller, was ineffective for failing to file a motion to
suppress his confession. (Doc. 10 at 4.) Petitioner
states that his confession was involuntary because,
during the police interrogation, he “twice asked for an
attorney” but was told by the interviewers that
“innocent people don’t need lawyers.” (Doc. 15 at 1.)
He states that he “then proceeded to provide a
confession to his involvement with the robbery after
being told by the agents what to say.” (Doc. 10 at 4.)
According to Petitioner, he and Scheller discussed in
detail the circumstance surrounding his confession,
but Scheller never advised him “that moving for
suppression of his confession was an option.” (Id.). He
contends that there was a reasonable probability that
the Court would have suppressed his confession and
that, if his confession had been suppressed, there was
“a reasonable probability [he] would have gone to
trial.” (Id.; Doc. 16 at 2-3). Respondents argue that
Claim One was waived because Petitioner’s plea was
knowing and voluntary and because there has been no
showing of prejudice. (Doc. 17 at 13-16). In the context
of a plea hearing, the United States Supreme Court
has stated that “the representations of the defendant
. . . at such a hearing, as well as any findings made by
the judge accepting the plea, constitute a formidable
barrier in any subsequent collateral proceedings.
Solemn declarations in open court carry a strong
presumption of verity.” Blackledge v. Allison, 431 U.S.
63, 73–74 (1977). The defendant's representations are
presumptively trustworthy and are considered

App. 7
conclusive absent compelling evidence showing
otherwise. Id. After Petitioner swore under penalty of
perjury to tell the truth at the plea hearing, he
averred that no one was forcing, coercing, or
intimidating him to plead guilty and that pleading
guilty was what he wanted to do and in his best
interest. (Criminal Case Doc. 79 at 30.) The Court
discussed the specific rights Petitioner was afforded if
he chose to persist with a not guilty plea. (Id. at 7-9).
Petitioner stated he was satisfied with Scheller's
representation, had no complaints whatsoever with
Scheller or his representation, and had spoken with
Scheller about the facts and law of his case. (Id. at 910, 12, 17, 20, 31- 33.) Petitioner stated that he had
read the plea agreement, that he understood its
terms, and that he had reviewed the plea agreement
with Scheller. (Id. at 17-18.) Petitioner declared that
he understood the rights and privileges he was
waiving by pleading guilty and proceeded to do so. (Id.
at 8-10.) Petitioner pled guilty to both counts and
informed the Court that he was pleading guilty
because he was guilty. (Id. at 21-22.)
The Government provided a factual basis for
Petitioner’s plea, and Petitioner agreed with the
Government’s factual basis. (Id. at 23-30). In fact,
Petitioner specifically described his role in the crimes.
THE DEFENDANT: Your Honor, I knew that Ricardo
Rodriguez was going to rob the bank. He had run ideas
about it to me. And I never stopped him from going
with it. And I knew he had a gun, and I knew that he
was going to rob the bank with the gun. And I knew
that everything was planned out and how everything
went down, the way it was.

App. 8
THE COURT: All right. At the time it's [sic] alleged in
the indictment, Mr. Mojica, did you take money from
the bank or participate in the taking of money from
the bank?
THE DEFENDANT: Yes, sir. THE COURT: And did - was that a federally insured bank?
THE DEFENDANT: Yes, sir.
THE COURT: And did you do that by using force,
violence, or by intimidating people?
THE DEFENDANT: Yes, sir.
THE COURT: And did you assault someone or put
somebody's life in jeopardy by using a dangerous
weapon while that money was being stolen?
THE DEFENDANT: Yes, sir.
THE COURT: And during the time that that crime
was being committed, was a firearm used and
brandished--that is, pulled out and displayed -- for
purposes of intimidation?
THE DEFENDANT: Yes, sir.
THE COURT: And did you participate in that crime
knowing about it in advance?
THE DEFENDANT: Yes, sir.
THE COURT: And did you have advance knowledge
that a firearm would be used and that it would be
displayed and that it would be used for purposes of
intimidating people?
THE DEFENDANT: Yes, sir. (Id. at 29-30.)
The Court determined Petitioner’s guilty plea was
knowing and voluntary. (Id. at 34.) The Court

App. 9
accepted Petitioner’s plea and adjudged him guilty of
the charged offenses. (Id. at 34.)
Although Petitioner states in the Amended Motion to
Vacate that Scheller never advised him that filing a
motion to suppress “was an option,” Petitioner
acknowledges he and Scheller discussed “the
circumstances surrounding [his] confession.” (Doc. 11
at 4.) In fact, Petitioner avers that he “fully explained
to Mr. Scheller the facts and circumstances about [his]
arrest and interrogation.” (Doc. 16 at 2.)
Moreover, Petitioner testified in open court that he
was satisfied with Scheller’s representation, had no
complaints whatsoever about Scheller or his
representation, and had discussed the law and facts of
his case with Scheller. Petitioner said nothing during
the plea hearing to indicate he had concerns about his
confession. Petitioner's assertion that Scheller was
ineffective during the plea phase is belied by the
record before the Court and is without merit. 2
Additionally, there has been no showing of prejudice.
Ricardo Rodriguez, Jr., Petitioner’s co-conspirator in
the crimes, gave law enforcement a post-Miranda
statement confessing to the crimes and setting forth
in detail Petitioner’s involvement in the crimes.3

2 In addition, as a result of the Plea Agreement, Petitioner
received a three-point reduction at sentencing for acceptance of
responsibility, and the Government agreed to recommend the
low-end of the advisory Guidelines range.
3 Rodriguez pled guilty to armed bank robbery and use of a
firearm during an in relation to a crime of violence in Case

App. 10
(Criminal Case Doc. 56 at 6). Rodriguez’ confession
was set forth in the Offense Conduct section of
Petitioner’s Presentence Investigation Report (“PSI,”
Criminal Case Doc. 56) and in the Criminal
Complaint (Criminal Case Doc. 1). 4
Petitioner states that “without the confession, there
was little tying [him] to the bank robbery” and that,
in the absence of the confession, there was a
reasonable probability he would have proceeded to
trial. (Doc. 15 at 11.) However, Petitioner’s confession
was not the only evidence supporting his convictions.
Rather, Rodriguez’ confession set forth in detail
Petitioner’s involvement in the crimes. Petitioner and
Rodriguez were friends, and Petitioner worked at the
bank that was robbed. (Criminal Case Doc. 1 at 1.)
Petitioner and Rodriguez had discussed robbing the
bank, although Petitioner did not specifically know
when Rodriguez would do so. (Id. at 8.) When
Rodriguez was arrested, the police found a notebook
on his person containing the names of the employees
that were scheduled to work on the day of the robbery.
(Id. at 6.) According to Rodriguez, Petitioner provided
him with that information. (Id. at 8.) Under the

Number 6:16-cr-238-Orl-37TBS. In his plea agreement,
Rodriguez acknowledged Petitioner’s involvement in the crimes.
4 Petitioner submitted a Statement (Doc. 15-2) signed by
Rodriguez, which is not notarized or dated. Rodriguez states that
he implicated Petitioner in the crimes because the agent
interrogating him had told him to do so. (Id. at 2.) The Court finds
that this unnotarized statement lacks evidentiary value and
notes that Petitioner did not object to the recitation of
Rodriguez’s confession in the PSI.

App. 11
circumstances, there has been no showing of
prejudice. As a result, Claim One is denied.
B. Claims Two and Three
Petitioner states in Claim Two that
aiding and abetting armed bank robbery no longer
constitutes a proper predicate for a § 924(c) violation.
This is because aiding and abetting armed bank
robbery does not fall within § 924(c)(3)(A), and thus
can only remain a qualifying predicate under §
924(c)(3)(B).
However,
§
924(c)(3)(B)
is
unconstitutionally vague under the reasoning of
Dimaya because there is no functional difference
between 18 U.S.C. § 16(b), the statutory provision at
issue in Dimaya, and § 924(c)(3)(B). (Doc. 11 at 5.)
Petitioner states in Claim Three that for aiding and
abetting armed bank robbery to qualify as a proper
predicate, the crime must constitute a residual clause
offense under § 924(c)(3)(B). But § 924(c)(3)(B) is now
unconstitutional in light of Sessions v. Dimaya, 138 S.
Ct. 1204 (2018). There is no principled distinction
between the residual clause struck down in Dimaya,
18 U.S.C. § 16(b), and § 924(c)(3)(B). (Id. at 7.)
However, the Eleventh Circuit Court of Appeals held
in Williams v. United States, 709 F. App’x 676, 677
(11th Cir. 2018) that “Johnson5 did not invalidate 18
U.S.C. § 924(c)(3)(B), and armed bank robbery is a

5 Johnson v. United States, 135 S. Ct. 2551 (2015).

App. 12
predicate crime of violence under § 924(c)(3)(A).” 6 As
a result, Claims Two and Three are denied.
Allegations not specifically addressed herein are
without merit.
IV. CERTIFICATE OF APPEALABILITY
This Court should grant an application for a
certificate of appealability only if the petitioner makes
“a substantial showing of the denial of a constitutional
right.” 28 U.S.C. ' 2253(c)(2). To make such a showing
“[t]he petitioner must demonstrate that reasonable
jurists would find the district court’s assessment of
the constitutional claims debatable or wrong.” Slack
v. McDaniel, 529 U.S. 473, 484 (2000); see also
Lamarca v. Sec’y, Dep’t of Corr., 568 F.3d 929, 934
(11th Cir. 2009). However, the petitioner need not
show that the appeal will succeed. Miller-El v.
Cockrell, 537 U.S. 322, 337 (2003).
Petitioner fails to demonstrate that reasonable jurists
would find the district court’s assessment of the
constitutional claims debatable or wrong. Moreover,
Petitioner cannot show that jurists of reason would
find this Court’s procedural rulings debatable.
Petitioner fails to make a substantial showing of the
denial of a constitutional right. Thus, the Court will
deny Petitioner a certificate of appealability.
6 In Ovalles v. United States, 905 F.3d 1231, 1253 (11th Cir.
2018), the Eleventh Circuit Court of Appeals held that §
924(c)(3)(B) was not unconstitutionally vague and that “[t]he
question whether a predicate offense constitutes a ‘crime of
violence’ within the meaning of 18 U.S.C. § 924(c)(3)(B) should
be determined using a conduct-based approach that accounts for
the actual, real-world facts of the crime’s commission, rather
than a categorical approach.”

App. 13
V. CONCLUSION
Accordingly, it is ORDERED and ADJUDGED as
follows:
1. The Amended Motion to Vacate, Set Aside, or
Correct Sentence (Doc. 10) is DENIED.
2. This case is DISMISSED with prejudice.
3. Petitioner is DENIED a certificate of appealability.
4. The Clerk of the Court is directed to enter judgment
in favor of Respondent and to close this case. A copy of
this Order and the judgment shall also be filed in
criminal case number.
5. The Clerk of the Court is directed to terminate the
section 2255 motion (Criminal Case Doc. 81) filed in
criminal case number 6:16-cr-239-Orl-37TBS.
DONE and ORDERED in Orlando, Florida on
November 16th, 2018.
Copies furnished to: Counsel of Record
OrlP-2 11/16

App. 14
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
Docket No. 6:16-cr-239
UNITED STATES OF AMERICA,
Plaintiff,
v.
BRANDON LEE MOJICA,
Defendant.
TRANSCRIPT OF CHANGE OF PLEA BEFORE
THE HONORABLE ROY B. DALTON, JR.
UNITED STATES DISTRICT JUDGE
APPEARANCES:
Counsel for Plaintiff: Emily C.L. Chang
Counsel for Defendant: Fritz J. Scheller
[24-25]
MS. CHANG: If this case were to go to trial, the
United States would prove that on or about November
8, 2016, in the Middle District of Florida, the
defendant, Brandon Lee Mojica, aiding and abetting
Ricardo Rodriguez, Jr., by force and violence and by
intimidation, did knowingly take from the presence of
another certain money, that is, United States
currency, in the approximate amount of $296,600
belonging to and in the care, custody, control,
management, and possession of Wells Fargo Bank
located at 1530 International Parkway, Lake Mary,
Florida, a bank whose deposits were then insured by
the Federal Deposit Insurance Corporation.

App. 15
And in committing said offense, the defendant did
assault and put in jeopardy the life of B.M., a bank
employee, by the use of a dangerous weapon. That is
a .32 caliber pistol.
In addition, on or about November 8, 2016, in the
Middle District of Florida, the defendant, aiding and
abetting Rodriguez, did knowingly use and carry and
brandish a firearm, that is, a .32 caliber pistol
manufactured by L.W. Seecamp Company, during and
in relation to the armed bank robbery.

